Audit of Performance Monitoring for Indicators
Appearing In Selected USAID Operating Units’
Results Review and Resource Request Reports

Audit Report Number 9-000-01-005-P

September 27, 2001




               Washington, D.C.
U.S. AGENCY FOR
  INTERNATIONAL
   DEVELOPMENT

Office of Inspector General

September 27, 2001

MEMORANDUM

FOR:              DAA/PPC, Kenneth G. Schofield

FROM:             IG/A/PA, Dianne L. Rawl /s/

SUBJECT:          Audit of Performance Monitoring for Indicators
                  Appearing in Selected USAID Operating Units'
                  Results Review and Resource Request Reports
                  (Audit Report No. 9-000-01-005-P)


This is our report on the subject audit. In finalizing the report, we
considered your comments on our draft report. Your comments on
the draft report are included, in their entirety, as Appendix II.

This report summarizes the results of seven Office of Inspector
General audits conducted at selected operating units. Each of the
seven audits resulted in recommendations addressed to the specific
operating unit under review. In addition to those audits, this report
contains three recommendations directed toward the Agency.
Based on information provided by your Bureau, we consider
Recommendation Nos. 1 and 3 to have received a management
decision and final action. We do not consider Recommendation
No. 2 to have received a management decision. Please provide
within 30 days any additional information related to actions
planned or taken to implement that recommendation.

I appreciate the cooperation and courtesy extended to my staff
during this audit.


                       1300 PENNSYLVANIA AVENUE, N.W.               1
                           WASHINGTON, D.C. 20523
[This page intentionally left blank]




                                       2
Table of   Summary of Results                                      5
Contents
           Background                                               6

           Audit Objective:                                         6

                  Did selected USAID operating units monitor
                  performance in accordance with Automated
                  Directives System E203.5.5 and other relevant
                  guidance as demonstrated by indicators
                  appearing in their Results Review and Resource
                  Request reports?

           Audit Findings:                                          7

                  Performance Monitoring Plans Need to be
                  Prepared or Updated and Improved                 8

                  Data Quality of Performance Indicators Was
                  Not Assessed                                     11

                  Operating Units Need to Disclose Data Quality
                  Limitations in Their R4 Reports                  14

           Management Comments and Our Evaluation                  17

           Appendix I - Scope and Methodology                      21

           Appendix II - Management Comments                       25

           Appendix III - Selected Operating Units Audited         28

           Appendix IV – Summary Schedule                          29




                                                                        3
[This page intentionally left blank]




                                       4
Summary of   This report summarizes the results of seven Office of Inspector
Results      General (OIG) audits conducted at selected operating units in
             Washington D.C. and in each of USAID’s four geographic regions
             overseas. (See Appendix III for a detailed listing of subject
             operating units and audit reports.) These audits were requested
             by USAID’s Bureau for Policy and Program Coordination (PPC).
             The audits were designed to determine if USAID's operating units
             monitored performance in accordance with Automated Directives
             System (ADS) E203.5.5 and other relevant guidance as demonstrated
             by indicators appearing in their Results Review and Resource
             Request (R4) reports. (See pages 6-7.)

             According to the individual audit reports, five of the seven
             operating units generally monitored performance in accordance
             with ADS E203.5.5 and other relevant guidance, while two did not.
             However, all seven operating units had areas for improvement that
             the respective OIG audit teams felt warranted audit
             recommendations. Those areas for improvement fell into three
             main categories: 1) improving performance monitoring plans; 2)
             performing data quality assessments; and 3) disclosing data
             limitations. (See pages 7-8.)

             While all seven audit reports included recommendations to
             improve performance monitoring for each of the specific operating
             units reviewed, we believe that there were also some corrective
             actions that USAID headquarters could take to improve the
             Agency, as a whole. (See pages 8-17.) Consequently, we
             recommend that PPC:

             •   develop a plan to train personnel regarding performance
                 monitoring plans (see page 11);

             •   revise Agency guidance to clarify when to conduct data quality
                 assessments (see page 14); and

             •   revise Agency guidance concerning the disclosure of data
                 quality limitations (see page 17).

             USAID management agreed with our findings and
             recommendations, with the exception of Recommendation No. 2.
             According to PPC officials, the effort needed to implement
             Recommendation No. 2 would have the effect of reducing the
             amount of performance information collected by operating units.
             (See pages 17-19.)


                                                                               5
Background        The Government Performance and Results Act of 1993 (Results
                  Act) was passed to improve Federal program effectiveness and
                  public accountability by promoting a new focus on results, service
                  quality, and customer satisfaction. The Results Act was designed
                  to improve Federal managers' service delivery by requiring that
                  they plan for meeting program objectives and by providing them
                  with information about program results and service quality. It was
                  also designed to improve Congressional decision-making by
                  providing more reliable information on the status of efforts to
                  achieve statutory objectives and on the relative effectiveness and
                  efficiency of Federal programs and spending.

                  In 1995, USAID developed a new performance reporting system
                  which included an organized process for monitoring the progress
                  of a program, process or activity towards its objective over time.
                  USAID's new performance monitoring system required managers
                  to (1) establish performance indicators, (2) prepare performance
                  monitoring plans, (3) set performance baselines, (4) collect
                  performance data, and (5) periodically assess data quality.

                  One component of USAID's new performance monitoring system
                  has been the preparation of annual Results Review and Resource
                  Request (R4) reports. These reports are the most significant
                  performance reports that the Agency's individual operating units
                  send to their respective bureaus. USAID's Automated Directives
                  System (ADS) requires that the information in the R4 reports be
                  used, as appropriate, for internal analyses, responding to external
                  inquiries, and reporting on USAID-wide results, including Results
                  Act reporting.



Audit Objective   This report summarizes the results of a series of audits performed
                  by the Office of Inspector General in seven locations.1 The audit
                  effort was designed to answer the following question:

                          Did selected USAID operating units monitor
                          performance in accordance with Automated Directives
                          System E203.5.5 and other relevant guidance as

                  1
                   The seven locations included: Washington, D.C., Ghana, Brazil, Malawi,
                  Romania, Nepal, and Egypt.


                                                                                            6
                         demonstrated by indicators appearing in their Results
                         Review and Resource Request reports?

                 This series of audits was unique in that it was requested by
                 USAID's Bureau for Policy and Program Coordination (PPC) and
                 one or more PPC officials actively participated in planning the
                 worldwide effort and were present during audit fieldwork at most
                 locations.

                 Appendix I describes the scope and methodology for these audits
                 in more detail.




Audit Findings   Did selected USAID operating units monitor performance in
                 accordance with Automated Directives System E203.5.5 and
                 other relevant guidance as demonstrated by indicators
                 appearing in their Results Review and Resource Request
                 reports?

                 According to the audit reports of the seven individual operating
                 units selected for this audit effort, five of the operating units
                 generally monitored performance in accordance with Automated
                 Directives System (ADS) E203.5.5 and other relevant guidance, as
                 demonstrated by indicators appearing in their Results Review and
                 Resource Request (R4) reports. The remaining two operating units
                 did not generally monitor performance in accordance with ADS
                 E203.5.5 and other relevant guidance.

                 With respect to the five operating units that had generally met
                 ADS requirements, the OIG found that, in most cases, baselines
                 had been properly established, data reported in the R4 reports
                 agreed to source documentation, baseline data were comparable
                 with the most recent data reported, and there were appropriate
                 assignments of responsibility to operating unit personnel.
                 However, each of the seven operating units had some weaknesses
                 that resulted in OIG recommendations. One of the two operating
                 units that had not met guidance had not prepared performance
                 monitoring plans (PMPs) for five of six performance indicators
                 tested, and another had not updated its PMPs since 1995.2

                 2
                   See Appendix IV for a summary schedule of the reviewed operating units'
                 compliance with required performance monitoring steps.



                                                                                             7
In summary, the OIG determined that all of the operating units
reviewed needed to improve their performance monitoring in one
or more of the following areas:

•   Produce more complete performance monitoring plans to aid
    in the consistent collection and reporting of credible data.

•   Perform and document "data quality assessments" as required
    by Agency guidance.

•   Use R4 report comment sections to address known data
    limitations and thereby allow users to objectively assess
    results reported.

While the seven audit reports included recommendations to
improve performance monitoring for each of the specific operating
units reviewed, we believe that there were also some areas in
which USAID could improve performance monitoring of the
Agency, as a whole. Those areas are explained below.

Performance Monitoring Plans Need
to be Prepared or Updated and Improved

Each of the seven operating units audited needed to either prepare
or update and strengthen their respective PMPs. The OIG found
that existing PMPs did not always meet USAID standards that
require (1) precise indicator definition, (2) data source
identification, (3) description of data collection method, and (4)
specification of data collection frequency and schedule. The
principal cause for these shortcomings was the lack of awareness
among operating unit staff members of USAID's procedures for
preparing and maintaining PMPs. Without plans, or up-to-date
plans, the operating units did not have assurance that they were
maintaining the controls that were essential for the operation of a
credible and useful performance-based management system. The
following paragraphs describe this opportunity for improvement in
detail.

USAID's Automated Directives System (ADS), which documents
the Agency's policies and procedures, states in Section 203.5.5(b)
that PMPs shall be prepared by each operating unit. Further, ADS
203.5.5(b) explicitly describes the purpose and content of these
PMPs as follows:



                                                                   8
                             Information included in a performance monitoring plan
                             shall enable comparable performance data to be
                             collected over time, even in the event of staff turnover,
                             and shall clearly articulate expectations in terms of
                             schedule and responsibility. Specifically, performance
                             monitoring plans shall provide a detailed definition of
                             the performance indicators that will be tracked; specify
                             the source, method of collection and schedule of
                             collection for all required data; and assign
                             responsibility for collection to a specific office, team or
                             individual.

                     OIG testing determined that the selected operating units had not
                     prepared or updated PMPs to meet the criteria in the applicable
                     ADS. The following table and examples illustrate how PMPs for
                     several indicators tested were deficient.


                                                        Performance Monitoring Controls
                                          Indicator      Data          Data           Data          Responsibility
     Selected Operating Units             Precisely     Sources      Collection    Collection         Assigned
And Number of Indicators Tested [X]        Defined     Identified     Method      Frequency &
                                                                     Described      Schedule
     USAID/Ghana [10]                      60%           80%          80%            80%              100%
      USAID/Brazil [8]                      63            75           38            100               100
 USAID/Economic Growth and
 Agricultural Development [6]                0           17              0            17                 17
      USAID/Malawi [7]                      57           100            57             0                 71
     USAID/Romania [5]                      40           40             40           100                100
      USAID/Nepal [8]                        0            0             13             0                 50
      USAID/Egypt [11]                      36           18             18            27                 64
  Total average compliance with
performance monitoring controls.3          37%           47%          35%            46%               72%


                     A recurrent problem was the lack of detailed definitions for each
                     indicator in the operating units’ PMP. For example, one of the
                     indicators tested, "value of selected nontraditional exports," did not
                     define which commodities should be included in the valuation.
                     Specific commodities should have been identified in the PMP to


                     3
                       These percentages were calculated by summing the percentage compliance of
                     each individual operating unit and dividing by the number of operating units
                     reviewed.


                                                                                                9
ensure that data was comparable from year to year and that
changes from baseline data were a true measure of performance.

Another common problem with the operating units' PMPs dealt
with properly identifying the data source, method, and frequency
of collection. For example, one operating unit's PMP for tracking
"incidents of pneumonia" stated that data were from demographic
health surveys collected annually by the local Ministry of Health
and compiled every five years. However, OIG testing revealed
that the data reported was from a private contractor and that the
data were actually collected quarterly. This type of discrepancy
highlights how staff turnover and the use of an obsolete PMP could
impact the operating unit's performance monitoring and use of
consistent, comparable data.

The principal causes for the weaknesses identified in the
underlying audits were:

1) a general lack of awareness by operating unit staff members of
   USAID's latest standardized procedures regarding PMPs;

2) program staff generally inexperienced in the requirements for
   project design, implementation, and management and
   performance monitoring;

3) the lack of operating unit-specific procedures for ensuring that
   PMPs were prepared and maintained in accordance with
   USAID guidance;

4) staff turnover; and

5) changing plans and priorities.

Although all operating units gave reasons why their PMPs were
incomplete, all concurred that their performance monitoring
systems suffered by not following USAID guidance. Properly
prepared PMPs contribute to the effectiveness of the performance
monitoring system by helping ensure that comparable data will be
collected on a regular and timely basis. They also provide
operating units with reasonable assurance that they are maintaining
the controls essential to the operation of a credible and useful
performance-based management system. The OIG audits indicated
that, without such plans, results reporting was disrupted and
compromised by staff turnover, data was not accurate and



                                                                 10
comparable from one period to the next, and the operating units'
accomplishments were not accurately reported.

The OIG made specific recommendations to each of the seven
operating units audited relating to its performance plans. For
example, the OIG recommended that operating units take such
actions as updating their current PMPs to precisely define
indicators, identifying all data sources, describing data collection
methods, and specifying data collection frequency and schedules.
Operating Unit managers agreed to take action on all these
recommendations and USAID management is tracking their
progress.

Although the selected operating units will benefit from the
individualized recommendations, the OIG believes that the lessons
learned from these audits should be shared agency-wide through
better training focused on performance monitoring and reporting.
Therefore, the OIG makes the following recommendation.

       Recommendation No. 1: We recommend that the
       Deputy Assistant Administrator of the Bureau for
       Policy and Program Coordination develop a plan to
       train appropriate operating unit personnel
       regarding the proper preparation, use, and
       maintenance of Performance Monitoring Plans.


Data Quality of Performance
Indicators Was Not Assessed

Contrary to USAID guidance, six of the seven operating units
audited had not performed required Data Quality Assessments
(DQAs) for all of the performance indicators selected for audit.
USAID guidance requires operating units to perform DQAs when
performance indicators are established and at least every three
years thereafter. These conditions resulted because operating unit
personnel were unaware of USAID's requirements for DQAs and
the requirements were not specific enough to guide users. Without
performing required DQAs, operating units did not have assurance
that data quality met validity, timeliness, and reliability standards
for results-oriented management, and poor quality data could
adversely affect management decisions relating to the use of scarce
program funds. The following paragraphs describe this
opportunity for improvement in detail.



                                                                   11
USAID's governing policy in effect during the period covered by
the underlying audits, states that "Data quality will be assessed as
part of the process of establishing performance indicators and
choosing data collection sources and methods. Data quality will be
reassessed as is necessary, but at intervals of no greater than three
years." 4 The USAID Center for Development Information and
Evaluation (CDIE) also issued guidance for assessing data quality.5
That guidance states that it is important to critically assess
performance measurement systems and data sources from time to
time to make sure that indicators are measuring the results and that
data is being collected as originally intended. Further it states that
assessments should be "systematic, documented and cover all
performance indicators."

Only one of the seven operating units had performed DQAs for all
indicators selected for audit. As illustrated in the table below,
DQAs were performed for less than half of the performance
indicators tested by the OIG.


       Selected Operating Units                      Data Quality
       And Number of Indicators                 Assessments Performed
              Tested [X]

    USAID/Ghana [10]                                          30%
    USAID/Brazil [8]                                          25
    USAID/Economic Growth and
    Agricultural Development [6]                              50
    USAID/Malawi [7]                                         100
    USAID/Romania [5]                                         20
    USAID/Nepal [8]                                           25
    USAID/Egypt [11]                                          91
    Total average compliance with
    performance monitoring control.6                         49%


The operating units that did not follow the policy and guidance in
effect during the period covered by the audits were non-compliant
because their staff members were not familiar with the DQA
requirements and because the ADS did not present those

4
  ADS E203.5.5e.
5
  CDIE TIPS Number 12, Guidelines for Indicator and Data Quality.
6
  These percentages were calculated by summing the percentage compliance of
each individual operating unit and dividing by the seven total operating units.



                                                                             12
requirements clearly. The requirement did not appear in ADS 201,
which dealt with planning, even though DQAs are an integral part
of the planning process. Instead, the requirements appeared in
ADS 203, which dealt with monitoring and evaluating
performance. However, ADS 203 did not provide sufficient detail
to guide missions in performing DQAs. It only stated that
reasonable standards of statistical reliability and validity should be
applied whenever possible. What constituted reasonable standards
was not explained any further.

Results-oriented management decisions require valid, current, and
reliable information. Without DQAs, the selected operating units
did not have reasonable assurance that data used to make
management decisions met these standards. As a result, the OIG
made specific recommendations in six of the seven underlying
audits relating to the proper completion of DQAs. For example the
OIG recommended that an operating unit complete DQAs on
performance indicators or fully disclose in its R4 report (1) why
indicators were not assessed, (2) the resulting limitations in the
confidence in data quality, and (3) a time frame for performing
DQAs. However, the individual audits did not address weaknesses
in ADS guidance.

In recognition of the problems noted during the audit, PPC revised
the ADS to provide additional guidance on performing DQAs.
ADS 203.3.6.6, "Assessing the Quality of Performance Data,"
which took effect in August 2000, was revised to state that
assessments are intended to ensure that performance information is
sufficiently complete, accurate, and consistent and meets specific
indicator quality requirements. However, the most important
addition to the ADS was the following statement.

       When conducting data quality assessments, operating
       units must…Document the assessment in the
       'Comment' section of the appropriate R4 performance
       data table.

Statements related to DQAs were also added to ADS section
201.3.4.13(a), which was revised to state that PMPs should
"Describe the quality assessment procedures that will be used to
verify and validate the measured values of actual performance."

Although USAID proactively took steps to address noted problems
at the Agency level, the OIG believes that the ADS, as currently
written, can be misinterpreted as applying only to indicators


                                                                   13
selected for inclusion in an operating unit’s R4 report. The OIG
believes that the ADS should be revised to state clearly that
assessment of indicators, and their reassessment within three years,
should apply to all indicators included in PMPs and not just to
indicators reported in R4 reports. Therefore, the OIG makes the
following recommendation.

       Recommendation No. 2: We recommend that the
       Deputy Assistant Administrator of the Bureau for
       Policy and Program Coordination revise the
       Automated Directives System to clearly state that
       operating units are required to conduct Data
       Quality Assessments, and reassessments within three
       years, on all performance indicators included in
       Performance Monitoring Plans and not just on those
       indicators included in Results Review and Resource
       Request reports.


Operating Units Need to Disclose Data
Quality Limitations in Their R4 Reports

Contrary to USAID guidance, six of the seven operating units
selected for audit did not disclose known data quality limitations in
their R4 reports. This occurred because of the lack of specific
USAID guidance for performing DQAs, as well as the fact that
DQAs for many indicators were not performed at all. As a result,
USAID management, Congress, and other stakeholders did not
have sufficient information to determine how much reliance could
be placed on the data. The following paragraphs describe this
opportunity for improvement in detail.

Each year USAID issues guidance for the preparation of R4
reports. The guidance cables in effect for the period covered by
the audit effort were dated December 21, 1998 and December 3,
1999. Both cables strongly encouraged use of the comment
section of the R4 report to discuss:

       …the degree to which achievement of a target is
       attributable to USAID…. Further inclusions to the
       comment section are: Whether and how the operating
       unit assessed the reliability of performance data
       provided by others (e.g. contractors, host gov.), plans to
       verify and validate performance data, and significant
       data limitations and their implications for measuring


                                                                    14
          performance results against anticipated performance
          targets. [Italics added for emphasis.)]

The U.S. General Accounting Office, in its Evaluator's Guide to
the Government Performance and Results Act, published in April
1998, defines significant data limitations as errors that would lead
to the inaccurate assessment of goal achievement. Further, this
report stated that potentially significant data limitations include
inconsistent data collection, data not clearly defined, and
inaccuracies due to imprecise measurement and recording.

The OIG was unable to determine whether six of the selected
operating units had properly disclosed all data limitations because
those operating units had not performed DQAs for all of the
indicators reviewed.7 If the operating units had conducted DQAs
for all indicators, the number of known data limitations and the
need for their disclosure may have increased. Following are
examples, from some of the individual operating unit audit reports,
of known data limitations that were not disclosed in the R4 reports.

One operating unit reported data for the indicator "Increases in
Per-Capita Food Production at Global/Regional Level." Although
operating unit officials were aware that this data did not represent
results attributable only to the operating unit's programs, but
included results that might also be attributable to other donor
programs or environmental factors, this significant data limitation
was not disclosed.

Another operating unit's strategic objective team leader had
concerns about data supplied by a contractor for the measurement
of the distribution of Vitamin A. The team leader decided to report
a more conservative estimate in the R4 report. Data quality
limitations applicable to the estimate were not reported in the R4
comment section.

In another instance, OIG testing determined that strategic objective
team members, to limit double counting, adjusted their operating
unit's reporting of the number of "girls receiving quality basic
education through USAID intervention." An adjustment was
considered necessary because contractors had not been required to
identify beneficiaries that participated in more than one of three
educational areas. However, data quality limitations applicable to


7
    See Appendix IV.


                                                                  15
the operating unit’s estimate of beneficiaries were not disclosed in
the R4 report.

A major cause of operating units' failure to adequately report
significant data quality limitations was the fact that ADS guidance
provided insufficient detail to guide missions in performing DQAs
and disclosing data limitations in PMPs and R4 reports. As stated
in the previous section of this audit report, the ADS guidance
dealing with DQAs only stated that reasonable standards of
statistical reliability and validity should be applied whenever
possible. Without further explanation or examples, the ADS did
not provide sufficient guidance for operating units to conduct
adequate DQAs and properly disclose any data limitations
discovered as a result of those DQAs. In addition, in many cases
the operating units audited had not performed DQAs for all
indicators, or had not performed them adequately enough to
determine the significance of discovered limitations.

DQAs are needed to identify and facilitate disclosure of data
limitations and to ensure that users are aware of how much reliance
can be placed on the results reported in R4 and other reports. It is
also important to note that the performance data used in the R4
reports is the foundation for USAID's Congressional Budget
Justification and the Agency Performance Report. Therefore,
without proper disclosure of known limitations, not only USAID
management, but also Congress and other interested users and
stakeholders do not have sufficient information needed to
effectively assess the reported performance and to determine how
much reliance to place on the data.

The OIG made specific recommendations in six of the seven
underlying audits relating to the proper disclosure of known data
limitations. For example, the OIG recommended that an operating
unit revise its procedures to ensure that data reported in its R4
report are "supported by adequate documentation, have
comparable baselines, and disclose any data limitations in
accordance with USAID and federal guidance." However, the
individual reports did not make recommendations to correct
weaknesses in ADS guidance.

Operating unit managers agreed to take action on all these
recommendations and USAID management is tracking their
progress. Although the selected operating units will directly
benefit from these audits, the OIG believes that the lessons learned
from these audits can benefit the Agency as a whole. Therefore,


                                                                  16
                 since the OIG noted that the cause of the weaknesses of the
                 selected operating units' R4 reports relating to the disclosure of
                 known data limitations could be addressed by clearer agency
                 guidance, the OIG is making the following recommendation.

                            Recommendation No. 3: We recommend that the
                            Deputy Assistant Administrator of the Bureau for
                            Policy and Program Coordination revise the
                            Automated Directives System to better assist
                            operating units in the proper identification and
                            disclosure of data quality limitations.




Management       In response to our draft report, management of USAID’s Bureau
Comments and     for Policy and Program Coordination (PPC) indicated that it
Our Evaluation   generally agreed with the findings and recommendations of the
                 report, with the exception of Recommendation No. 2.

                 In our draft report we noted that, during the course of the seven
                 audits−often before final audit reports and recommendations were
                 issued−PPC took actions to address some of the common problems
                 identified in the audits on an Agency-wide basis.

                 For example, with regard to the issues addressed in
                 Recommendation No. 1 concerning the need for training
                 appropriate personnel regarding the proper preparation, use, and
                 maintenance of performance monitoring plans (PMPs), PPC had
                 already taken the following actions:

                 •      Developed a new worldwide Performance Management
                        Training program for fiscal year 2001 with workshops that
                        include practical, interactive case studies to help trainees learn
                        how to develop a comprehensive PMP; and

                 •      Issued revised guidance8 that reiterated the minimum elements
                        of a PMP, added requirements that a "written PMP document
                        must be in place for each Strategic Objective within one year
                        of strategy approval," and assigned responsibility for the PMP
                        by stating that "the PMP must be reviewed and approved by
                        the Head of the Operating Unit."


                 8
                     ADS 201.3.4.13, (effective 8/00).


                                                                                       17
With regard to the issues addressed in Recommendation No. 3,
concerning the need for revised guidance to assist operating units
in identifying and disclosing data limitations, PPC had already
revised the ADS to include the following requirements:

•      PMPs must "Describe the known data limitations,
       discuss the significance of the limitations for judging
       the extent to which goals have been achieved, and
       describe completed or planned actions to address these
       limitations."

•      Data reported in the R4 reports must meet certain quality
       standards including reasonable standards of validity,
       reliability, timeliness, precision, and integrity. Whenever
       these quality standards cannot be met, known weaknesses
       must be identified in the comment section of the data table
       used for reporting. In addition, specific steps for correcting or
       overcoming these weaknesses must be discussed as well.

Based on these actions, as well as PPC’s comments (included
verbatim in this report as Appendix II), we consider
Recommendation Nos. 1 and 3 to have received a management
decision and final action upon issuance of this report.

With regard to Recommendation No. 2, which dealt with
the need to perform data quality assessments (DQAs), PPC
disagreed with the OIG’s conclusion that DQAs should be
required for all performance indicators included in PMPs.
According to PPC, this requirement would have the effect
of reducing the amount of information collected by USAID
missions−resulting in less data used for decision making.
PPC management felt strongly that new ADS guidance,9
issued in September 2000, was sufficient to meet both
USAID’s needs, as well as the needs of oversight agencies,
to have reliable data on Agency accomplishments. Based
on the issuance of this new guidance, PPC management
believed that it had taken final action on this
recommendation.

While we understand that there may be situations in which
operating units might want to test the efficiency and
effectiveness of performance indicators without being
locked into making sometimes costly and time-consuming

9
    ADS 203.3.6.5.


                                                                      18
DQAs, we believe that indicators included in PMPs are, by
their very selection, significant and relevant to program
management. Consequently, we continue to recommend
that DQAs be required for all performance indicators
included in PMPs, regardless of whether or not they are
selected for inclusion in an R4 report. Therefore, we do not
consider Recommendation No. 2 to have received a
management decision and request PPC management to
provide any additional information related to actions
planned or taken to implement that recommendation within
30 days.




                                                               19
[This page intentionally left blank]




                                       20
              Apppp                                                                  Appendix I


Scope and     Scope
Methodology
              These audits of the selected operating unit's controls over
              performance monitoring were conducted in accordance with
              generally accepted government auditing standards. The audits
              assessed the selected operating unit's internal controls governing
              the quality of data reported in their fiscal year 2001 or 2002
              Results Review and Resource Request (R4) reports. Specifically,
              the audits addressed whether: (1) baselines were established,
              (2) adequate performance monitoring plans were completed,
              (3) data quality assessments were performed, and (4) data reported
              in the subject R4 report complied with reporting requirements.

              These audits did not review the selected operating units' entire R4
              reports for fiscal year 2001 (prepared in calendar year 1999) or
              2002 (prepared in calendar year 2000). Instead, the audits
              examined representative samples of judgmentally selected
              indicators reported in the respective reports. Each OIG audit team
              justified the selection of indicators tested by choosing indicators
              from most (if not all) of each operating unit's strategic objectives
              (SO). Audit teams also considered such factors as the amount of
              funding associated with the SOs, future plans and operating unit
              management input.

              The auditors reviewed performance monitoring documentation
              including performance monitoring plans (when available); strategic
              planning documentation; and R4 reports for fiscal years 1999,
              2001 and 2002 (when available). The auditors also reviewed
              documentation to support the 1998 or 1999 baselines (when
              available) and data quality assessments (if performed). In addition,
              the auditors interviewed program officials and support contractors.
              The audit did not assess the performance indicators themselves,
              and only limited tests were performed of the data itself.

              The fieldwork for the underlying audits was conducted in:

              •   Accra, Ghana, from January 31, 2000, through February 25,
                  2000;

              •   Brasilia, Brazil, from March 21, 2000, through May 18, 2000;



                                                                                21
•    Washington, D.C., from April 14, 2000, through August 9,
     2000;

•    Lilongwe, Malawi, from March 28, 2000, through June 1,
     2000;

•    Bucharest, Romania from September 13, 2000, through
     September 28, 2000;

•    Katmandu, Nepal, from October 16, 2000, through November
     2, 2000; and

•    Cairo, Egypt, from August 29, 2000, through December 6,
     2000.


Methodology

Officials from the Bureau for Policy and Program Coordination
(PPC) requested that we perform this audit work to determine
whether the quality of data reported in R4 reports had improved.
Officials from PPC provided assistance to the OIG during the
above audits in accordance with a joint Memorandum of
Understanding (MOU) which outlined specific responsibilities and
conditions of both PPC and OIG. According to the MOU, PPC
staff members were to assist in the audits as “specialists,”
knowledgeable in the area of performance indicators in general and
Agency guidance in particular. Accordingly, all conclusions and
reports that ensue from these audits are the sole responsibility of
the OIG.

The audits began with a series of meetings with operating unit
officials to discuss each indicator reported in the respective R4
reports. Based on those meetings, a judgmental sample of
indicators was selected for review at each audit site. Using
ADS E203.5.5 and other guidance,10 the basic controls tested were
whether the operating units:

10
  Other relevant guidance included USAID Bureau for Policy and Program
Coordination, "FY 2001 Results Review and Resource Request Guidance,"
December 21, 1998 and "FY 2002 Results Review and Resource Request
Guidance," December 3, 1999; U.S. General Accounting Office Report
No. GAO/GGD-10.1.20, "The Results Act: An Evaluator's Guide to Assessing
Agency Annual Performance Plans," April 1998; and USAID Center for
Development Information and Evaluation TIPS No. 7, "Preparing a Performance
Monitoring Plan," 1996.


                                                                        22
•   Prepared performance monitoring plans that (1) contained a
    detailed definition of the indicator that set forth precisely all
    technical elements of the indicator, (2) identified all data
    sources, (3) described the data collection method in sufficient
    detail to enable it to be applied consistently in subsequent
    years, (4) specified frequency and schedule of data collection,
    and (5) assigned responsibility for collecting data;

•   Established indicator baseline data either in the strategic plan
    or a subsequent Results Review and Resource Request report;

•   Completed an assessment of data quality for all indicators
    when initially included in a performance monitoring plan, or
    at an interval no greater than three years after being included
    in a performance monitoring plan;

•   Reported data that was adequately supported by source
    documents;

•   Reported baseline data in the R4 report that were comparable
    to the data reported for the indicator; and

•   Disclosed known data limitations (if any) in the comments
    section of the R4 report.

The underlying premise for these audits was that performance
monitoring provides reasonable assurance that data reported by the
Agency meets USAID's quality standards.

In forming an overall opinion on whether the selected operating
units monitored performance in accordance with Agency guidance,
the OIG reviewed a summary of the selected operating unit's
performance monitoring controls in four areas: (1) establishing
baselines, (2) preparing performance monitoring plans,
(3) assessing data quality, and (4) reporting results in the R4
report. Although we numerically summarized the results of these
reviews (see Appendix IV), the combination of all the assessed
controls could not adequately be reduced collectively to one
overall numerical scoring system or threshold in forming our
opinion. Consequently, we relied on our professional judgement,
rather than a pre-defined materiality threshold, to determine
whether or not common findings warranted Agency-wide audit
recommendations.



                                                                   23
[This page intentionally left blank]




                                       24
                                                                                Appendix II




Management
Comments



                                                               September 21, 2001
      U.S. AGENCY FOR
        INTERNATIONAL
         DEVELOPMENT




               MEMORANDUM

               FROM:          DAA/PPC, Kenneth G. Schofield /s/

               TO:            IG/A/PA, Dianne L. Rawl

               SUBJECT:       Draft Audit Report for the "Audit of
                              Performance Monitoring for Indicators
                              Appearing in Selected USAID Operating Units'
                              Results Review and Resource Request Reports"

                      Thank you for the opportunity to comment on this
               report. PPC agrees with the findings of the report. With
               regard to the three recommendations of the report, PPC has
               the following comments:

               Recommendation No. 1:

                      We recommend that the Deputy Assistant Administrator
               of the Bureau for Policy and Program Coordination develop a
               plan to train appropriate operating unit personnel regarding
               the proper preparation, use, and maintenance of Performance
               Monitoring Plans.

                      The OIG considers that management has taken final
               action on this recommendation. The recently completed audit
               effort was unique in that it was requested by PPC management
               and PPC staff members actively participated in planning the
               worldwide effort and in fieldwork at most locations. During
               the course of the audits, oftentimes before final OIG audit
               reports and recommendations were issued, PPC took action to
               address the problems noted by revising guidance or training.

                        PPC agrees with the OIG conclusion.



                                    1300 PENNSYLVANIA AVENUE, N.W.
                                          WASHINGTON, D.C. 20523




                                                                                        25
                             2

Recommendation No. 2:

       We recommend that the Deputy Assistant Administrator of
the Bureau for Policy and Program Coordination revise the
Automative Directives Systems to require operating units to
perform Data Quality Assessments and reassessments within
three years on all performance indicators included in
Performance Monitoring Plans, regardless of whether the
indicator is selected for inclusion in the operating unit’s
Results Review and Resource Request reports.

       PPC disagrees with the OIG conclusion because of its
sweeping nature. Current guidance, which recommends the
expansion of Results frameworks and performance monitoring
plans to be more effective management tools would be thwarted
by a requirement that ALL performance indicators have a formal
Data Quality Assessment. Certainly, we agree, as stated in
ADS 203.3.6.5, that: "Whenever operating units are collecting
and using data for internal management reasons, prudence
dictates that managers be fully aware of the strengths and
weaknesses of the data they use." Nonetheless, we feel that
requiring that all indicators in a performance monitoring plan
have a formal data quality assessment will have the effect of
reducing the amount of information that missions collect, and,
paradoxically, diminish the amount of data available for
decision making.

       PPC, therefore, feels strongly that current guidance in
ADS 203.3.6.5 is sufficient to meet both USAID's needs, as
well as the needs of oversight agencies to have reliable data
on Agency accomplishments. We note that this guidance was
also issued in September, 2000, is a part of the training
programs recognized by recommendations one and three as being
appropriate responses to issues in performance management, and
had not yet been fully implemented at the time of the audits
covered in this report.

       We therefore feel that, with the issuance of ADS 203,
specifically 203.3.6.5, management has taken final action on
this recommendation.

       We also agree with the OIG that data quality limitations
should be disclosed when these indicators are reported to
Washington or oversight agencies. This issue is also
addressed in the most recent version of ADS 203, as well as in
the annual reporting cable.




                                                                 26
                              3

Recommendation No. 3:

       We recommend that the Deputy Assistant Administrator of
the Bureau for Policy and Program Coordination revise the
specific ADS sections that address data quality limitations to
assist operating units in the proper identification and
disclosure of this important information.

       The OIG considers that management has taken final
action on this recommendation. As discussed previously,
during the worldwide audit effort PPC acted proactively to
revise the ADS as problems surfaced. To address the weakness
noted above, the ADS was revised to include the following
requirements.

       PPC agrees with the recommendation that management has
taken final action on this recommendation.

       Again, we appreciate the work that has been done on the
issues of performance management, as well as the opportunity
that we had to work together with the OIG and RIGs to perform
the audits.




                                                                 27
                                                                 Appendix III



Selected    Report No. 7-641-00-007-P, "Audit of USAID/Ghana’s
Operating   Performance Monitoring for Indicators Appearing in the FY 2001
Units       Results Review and Resource Request," June 30, 2000
Audited
            Report No. 1-512-00-005-P, "Audit of USAID/Brazil’s
            Performance Monitoring for Indicators," July 17, 2000

            Report No. 9-000-00-003-P, "Audit of Global Bureau's Center for
            Economic Growth and Agricultural Development's Performance
            Monitoring for Indicators Appearing in the Fiscal Year 2002 Results
            Review and Resource Request Report," September 26, 2000

            Report Number 4-612-01-001-P, "Audit of USAID/Malawi’s
            Performance Monitoring for Indicators Appearing in the Fiscal
            Year 2002 Results Review and Resource Request Report,"
            October 19, 2000

            Report No. B-186-01-003-P, "Audit of USAID/Romania’s
            Performance Monitoring for Indicators," February 26, 2001

            Report No. 5-367-01-002-P, "Audit of USAID/Nepal's Performance
            Monitoring for Indicators Appearing in the Fiscal Year 2002 Results
            Review and Resource Request Report," March 9, 2001

            Report No. 6-263-01-003-P, "Audit of USAID/Egypt’s
            Performance Monitoring for Indicators Appearing in the FY 2002
            Results Review and Resources Request Report," March 20, 2001




                                                                         28
                                                                                                                                                           Appendix IV


                                                                 SUMMARY SCHEDULE
                                                          Percentage of Indicators in Compliance
                                                         with Listed Performance Monitoring Controls
                                                             In the Performance Monitoring Plan…                                                           In the R4 Report…
                                             1.          2.           3.           4.              5.               6.           7.            8.           9.              10.
                                             Indicator   Data         Data         Data            Responsibility   Data         Baseline      Data         Comparable      Data
      Selected Operating Units               Precisely   Sources      Collection   Collection      Assigned         Quality      Established   Agrees to    Baseline        Limitations
 And Number of Indicators Tested [X]         Defined     Identified Method         Frequency &                      Assessment                 Source                       Disclosed11
                                                                      Described    Schedule                         Done
USAID/Ghana [10]                                60%         80%          80%            80%            100%             30%         100%          80%            90%            n/a
USAID/Brazil [8]                                63          75           38            100             100              25           88            38            63             n/a
USAID/Economic Growth and
Agricultural Development [6]                     0          17            0             17              17              50          100           50            100            n/a
USAID/Malawi [7]                                57         100           57              0              71             100          100          100            100            100
USAID/Romania [5]                               40          40           40            100             100              20          100           80            100            n/a
USAID/Nepal [8]                                  0           0           13              0              50              25          100           75             88            n/a
USAID/Egypt [11]                                36          18           18             27              64              91          100          100            100            n/a

Total average compliance with                   37%         47%          35%            46%              72%           49%            98%         75%            92%            n/a
performance monitoring steps.12

  Based on the audit results for the selected operating units, the following table summarizes the performance monitoring controls for the
  reviewed indicators appearing in the operating unit's respective fiscal year 2001 or 2002 R4 reports.




  11
     Because six of the seven operating units had not performed DQAs for all indicators reviewed, the OIG was unable to determine whether all data limitations
  were properly identified and disclosed for those six units.
  12
     These percentages were calculated by summing the percentage compliance of each individual operating unit and dividing by the number of operating units
  reviewed.




                                                                                                                                                                          29
[This page intentionally left blank]




                                       30
